<html>
<title> - HEARING ON UNITED STATES CAPITOL POLICE RADIO UPGRADES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         HEARING ON UNITED STATES CAPITOL POLICE RADIO UPGRADES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CAPITOL SECURITY

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, JUNE 18, 2008

                               __________

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
44-909 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member 
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

                    Subcommittee on Capitol Security

              MICHAEL E. CAPUANO, Massachusetts, Chairman
ROBERT A. BRADY, Pennsylvania        DANIEL E. LUNGREN, California


              UNITED STATES CAPITOL POLICE RADIO UPGRADES

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                  House of Representatives,
                  Subcommittee on Capitol Security,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 1310, Longworth House Office Building, Hon. Michael E. 
Capuano (chairman of the subcommittee) Presiding.
    Present: Representatives Capuano, Brady, Lofgren, and 
Lungren.
    Staff Present: Liz Birnbaum, Staff Director; Darrell 
O'Connor, Professional Staff; Michael Harrison, Professional 
Staff; Matt Pinkus, Professional Staff/Parliamentarian; Kyle 
Anderson, Press Director; Kristin McCowan, Chief Legislative 
Clerk; Gregory Abbott, Policy Analyst; Fred Hay, Minority 
General Counsel; Alec Hoppes, Minority Professional Staff; and 
Bryan T. Dorsey, Minority Professional Staff.
    Mr. Capuano. We are going to start on time because Mr. 
Lungren is here, and Mr. Brady, I believe, is on his way. He 
will be here shortly. And I am under the impression that we 
have a good chance of having votes called in the not too 
distant future, so I figured, let us see if we can do this 
while we can.
    For the purposes of the record, and I hate doing this, but 
I will because, if I don't, my staff will yell at me, I am just 
going to read a little statement into the record.
    This afternoon we will receive an update from the Capitol 
Police on the status of efforts to upgrade their radio 
communication system. Their mission is to ensure a safe 
environment for everyone visiting the Capitol and those working 
in Congress. An essential component of that role is the ability 
of the Capitol Police to communicate effectively with each 
other and with relevant public safety personnel.
    I look forward to learning today more about their progress 
in implementing the new system, including the reasoning behind 
the choices they have made in formulating the set of criteria 
for a new radio communications network. Through the testimony 
of the individuals joining us today--we will have a second 
panel as well--the Subcommittee on Capitol Security will gain a 
better understanding of the decisions made by the Capitol 
Police in choosing the type of system that they feel is 
necessary to enhance the safety of the Capitol complex.
    Much has been asked of the Capitol Police of recent years, 
and we all get a sense of the expanding nature of the security 
threats, the necessity of having an enhanced radio 
communication system to improve the flow of information during 
a crisis. We should all work to facilitate the implementation 
of an improved system.
    Before I close, I would also like to thank the chairman, 
Mr. Brady, who will be here in a moment, and the subcommittee 
ranking member, Mr. Lungren, as well as everyone in the 
audience for attending today. And I look forward to hearing 
from the witnesses.
    And for my personal interest, because I am no radio expert, 
I am hoping that all people who testify try to stay away from, 
as much as possible, technical jargon because I may fall asleep 
if you insist on using it. I am interested in the generalities 
as to whether the system that is being considered is the kind 
of system that we should be moving to; is it the norm in the 
business, or is it some sort of an exception? And I would also 
be interested in hearing people's opinions on the general cost 
of such a system, because I think that is of interest to us.
    And with that, I will ask Mr. Lungren if he has any opening 
statement.
    [The statement of Mr. Capuano follows:]
    [GRAPHIC] [TIFF OMITTED] T4909A.001
    
    Mr. Lungren. Thank you very much, Mr. Chairman.
    As you know, I returned to this Congress because of my 
desire to keep our country safe and secure from the threat of 
terrorist attack. And one of the prime targets of such a 
terrorist attack has been and will continue to be our Nation's 
Capitol.
    I have, since 9/11, been concerned about a number of 
different things involving our first responders. Coming out of 
the experience of 9/11 and other episodes around the country, 
it is clear that our interoperability is not where it should be 
with jurisdictions around the country. And interoperability 
usually goes to the question of different types of responders 
being able to communicate with one another in different 
jurisdictions.
    But at base, we also suffer from a lack of what I consider 
to be sufficient improvement in the communications networks 
within a department. And I am concerned that we do not have 
what we need to have here. And I know that people are concerned 
about the cost. I am concerned about the cost.
    But I would just say this: It seems to me strange that I 
never hear Congress rejecting the notion that we need to do 
everything that is necessary to protect the President of the 
United States, the White House and other offices that surround 
the Executive Office of the President, and yet we don't seem to 
have that same urgency with respect to our Nation's Capitol. I 
am not suggesting that Members of Congress are Presidents of 
the United States, but what I am suggesting is the institution 
of the Congress is as important as the institution of the White 
House--or institution of the Presidency or the institution of 
the Supreme Court. And we disserve ourselves and our 
constituents by not putting the same attention to the security 
needs of this Capitol as we would for the President of the 
United States.
    And we should always be conscious of the cost of things 
involved and make sure that we make appropriate decisions with 
regard to the taxpayers. But I hope we are not going to have 
any idea--and I am not suggesting you Mr. Chairman are, but I 
hope the Congress is not going to nickel and dime its approach 
to security at this Capitol.
    If, in fact, as I have been led to believe, there are 
certain parts of the Capitol that make it difficult for 
communications by radio, that is the problem. That doesn't mean 
that ought to continue. If it requires us to make certain fixes 
and requires us to adopt certain hardware in order to make that 
problem be surmounted, then we ought to do it. And if that is 
somewhat costly, we ought to understand the cost is related to 
the specifics.
    We are not going to change the Capitol. We are not going to 
change the construction of the Capitol. We have to realize it 
presents some unique problems with respect to communications. 
And if it does, as I believe it does, then our obligation is to 
overcome those obstacles rather than either to pretend that 
they are not there or to somehow say it would be too expensive 
for us to do the job.
    I know the chairman shares my concern about this place, but 
I just would like to put that on the record. This committee, I 
know, is committed to making this Capitol secure. And as the 
chief authorizing committee in this regard, it seems to me we 
need to not only look at this but act on this issue as soon as 
possible.
    And so I thank the Chairman for having this hearing.
    Mr. Capuano. Thank you, Mr. Lungren.
    Before I forget, because if the bells ring, we need to run 
out of here, without objection, I assume there is none, that 
the hearing record will remain open for a period of 2 weeks for 
anybody to submit additional testimony, clarifying testimony, 
at a later time.
    And I am pleased to introduce Mr. Brady. For those of you 
who don't know him, he is the Chairman of the full committee 
and a fine and wonderful friend of mine and the police 
department.
    And he informs me he has no opening statement, which is 
usually my role, but that is to be quiet while he is talking.
    With that, I am just going to go right to the Chief and it 
is yours Chief.

STATEMENT OF CHIEF PHILLIP D. MORSE, SR., UNITED STATES CAPITOL 
POLICE; ACCOMPANIED BY ASSISTANT CHIEF DAN NICHOLS; AND GLORIA 
              JARMON, CHIEF ADMINISTRATIVE OFFICER

    Chief Morse. Thank you.
    Thank you, Mr. Chairman, members of the committee.
    I would like to thank you for the opportunity to appear 
before you today to discuss the United States Capitol Police's 
proposal for a new radio system.
    I am also pleased to be joined here today by my Assistant 
Chief, Dan Nichols, and to my left, my Chief Administrative 
Officer, Gloria Jarmon.
    It has been 2 years since I was selected as the Chief of 
the United States Capitol Police. I have served the Department 
for the past 23 years. And during this time, the Department has 
made tremendous improvements in a number of areas, both 
operationally and administratively.
    One area still needing improvement is our current radio 
communication system. Radios serve as a lifeline for every law 
enforcement officer. Officers depend on their radios as much as 
they do their weapons. It is often considered an officer safety 
issue when an officer is unable to effectively communicate with 
his or her fellow officers or dispatchers. Critical information 
can be delayed or missed all together when you do not have 
reliable and secure radio communications.
    The Department is routinely challenged every day with 
keeping our current radio system up and running. The system is 
over 20 years old, and we are experiencing failures on a 
regular basis. These failures are the direct result of an aging 
equipment and infrastructure that have significantly exceeded 
their life expectancy. Equipment manufacturers no longer make 
many of the critical parts used in the Capitol Police radio 
system, which substantially increases the risk that we will not 
be able to respond appropriately in an emergency or even during 
normal operating conditions.
    A web of very well structured buildings with numerous 
underground tunnels and subways adds a tremendous amount of 
complexity to the radio system. It is the mission of the 
Capitol Police to patrol these areas on a routine basis, though 
the penetration of radio signals into these areas make that 
more challenging.
    Unlike many other law enforcement agencies whose mission is 
to patrol primarily outdoors, the majority of the U.S. Capitol 
Police patrol area is within the buildings and underground 
areas. While my staff has done a tremendous job of providing as 
much radio coverage as possible throughout this web of 
buildings, tunnels and garages and subways, there are many gaps 
that exist today.
    The age of the current radio system is a major concern 
since nearly 90 percent of the system infrastructure is 25 
years old and desperately needs to be replaced. Our current 
system is analog with a very limiting five-channel capability. 
While the size of the Capitol Police force has increased our 
radio system has not.
    Our current level of radio security does not meet 
appropriate Federal standards, and there are numerous issues 
involving our current system that I am unable to discuss 
publicly, but I would be happy to discuss further with the 
committee in a closed-door session.
    In 2005 the Capitol Police partnered with NavAir to perform 
an assessment of the current system. NavAir produced a very 
comprehensive report that included an RF propagation study as 
well as many recommendations for making improvements to our 
radio system and infrastructure. Based upon the NavAir 
findings, the U.S. Capitol Police tasked NavAir with providing 
a high level recommendation for the future direction of the 
radio communications supporting our operations.
    In 2006 the Capitol Police hired a consultant, Concepts to 
Operations, to assist the Department in moving forward the new 
radio system. CTO was selected based upon their extensive 
knowledge, vendor independence, strong reputation and 
experience in designing and building radio communications for 
systems for public safety organizations. And in 2007, the 
Capitol Police hired a full-time radio project manager from 
Global Tech.
    Our project plan for the new radio system consists of a 
seven-phase approach which is outlined in the U.S. Capitol 
Police development lifecycle policy document. The first phase 
is the definition of the project, which includes the purpose of 
the project, associated benefits and so on. Our second phase 
involves the gathering of system requirements. This stage 
defines how the system is to operate and what characteristics 
it will have. Phase three of our lifecycle takes the 
information gathered in the requirement phase and constructs a 
design based on those requirements. We are currently at the 
beginning of the fourth phase of the project, which is the 
acquisition phase. And at this time, the completion of the 
request for proposal for the new radio system is required.
    The new radio system will require considerable facility 
related work in order to host a system in primary and secondary 
or mirrored locations. Having a redundant radio system in a 
second location will substantially reduce the potential for 
outages resulting from environmental or terrorist related 
events. We at the Capitol Police look forward to working 
collaboratively with the Congress to continue to safeguard the 
legislative process, the Members, staff and visitors of the 
complex.
    We thank you for the opportunity once again to appear 
before you. And my colleagues and myself are prepared to answer 
any questions that you may have.
    [The statement of Chief Morse follows:]

    [GRAPHIC] [TIFF OMITTED] T4909A.002
    
    [GRAPHIC] [TIFF OMITTED] T4909A.003
    
    [GRAPHIC] [TIFF OMITTED] T4909A.004
    
    [GRAPHIC] [TIFF OMITTED] T4909A.005
    
    [GRAPHIC] [TIFF OMITTED] T4909A.006
    
    Mr. Capuano. Thanks Chief.
    I have a few questions just to start off. Most notably, the 
system that is proposed--and again, I understand that there 
might be details, if I get to a point where there are some 
details you don't want to discuss in public, just say so, and 
that is not a problem. The system that is proposed, in general, 
do you consider it a state-of-the-art system?
    Chief Morse. Yes, I do.
    Mr. Capuano. And if you were the Chief of Police of New 
York City, is this the type of system you might be interested 
in looking at?
    Chief Morse. Yes, I would be.
    Mr. Capuano. And you feel comfortable that we have had 
enough outside experts, independent experts take a look at this 
that would support your position?
    Chief Morse. Yes, I do.
    Mr. Capuano. The reason I ask is because, obviously, there 
is a letter that has been circulated from one of the vendors 
that indicates that the system may be more than we need and 
that maybe we should just piggyback on an existing system. And 
I am just curious what would be your response to that 
suggestion?
    Chief Morse. Well, first, I think it would be appropriate 
for me to take you through how we came about selecting the 
capabilities of this particular system.
    First, we had the NavAir study, which concluded that our 
current system was one that was in need of desperate repair or 
enhancement in order to give us daily operations and future 
operations. But it also said that we needed to look down the 
road to a state-of-the-art system to help us provide security 
to the Congress.
    The first thing we had to do was take a look at our mission 
and what it is we are responsible for in safeguarding Congress 
and facilitating the legislative process. So, internally, we 
took a look at those mission sets and how they related to 
communications and, specifically, radio communications. And 
that was our first step to have a concept of operations for 
this new system.
    Then what we did is reached out to a company, which is CTO, 
Concepts to Operations, which are senior executive 
telecommunications engineers, 16 years of experience in this 
type of business, a multitude of clients that have very similar 
systems to this. And they were to help us from the engineering 
standpoint to take that concept and get us to the operational 
needs, the Capitol Police needs, in order to facilitate the 
safety and security of Congress and facilitate the legislative 
process.
    Once that was accomplished, we were able to reach the stage 
that we are now, which is the acquisition stage. And at this 
point in time, the design and the concept doesn't have any 
specific manufacturer or entity in mind. It has a concept that 
comes from within the agency and its stakeholders whom we serve 
and the mission that we serve. So once the RFP is written, it 
is open for you know technical scrutiny.
    Mr. Capuano. In these studies, in the NavAir, the CTO, and 
in your own review, did you also look at the options? Was the 
option reviewed about other systems? Let us put it this way. 
When I go out to buy a new automobile, my dreams all come true 
when I go to look at the $100,000 cars, and then I walk away 
from them. You know, they are fun to shop around for a little 
while, maybe take one for a test drive. It is not going to 
happen, and I end up back in reality. And I am just curious, 
did you take a look at some of the--again, I am going here 
because this letter has kind of made the rounds. This letter is 
kind of out there in the general public, and it raises some 
serious question about the potential of saving tens of millions 
of dollars. I am not saying, there is--were the options that 
they proposed reviewed and compared against the ones that you 
chose?
    Chief Morse. From a technical engineering standpoint, the 
answer is yes. All those considerations were made internally 
and externally. Internal and external is unique with our police 
department, because many of the municipal police departments 
have 80 percent of their mission outside; whereas we have 80 
percent of our mission inside. So there are technical 
engineering solutions to that that answer those questions that 
you are asking: Does a certain system work? So there are 
technical engineering solutions to each one of these 
capabilities when you talk about options.
    The one thing that I had to understand as we went through 
this process is that a P25 trunk digital radio system is that 
in and of itself. With that comes options, various options of 
encryption, options of coverage; is that coverage internal, 
external? Clarity, voice clarity, and then finally is, how do 
you from an engineer standpoint find the solutions to that type 
of coverage and infrastructure? All that was looked at in this 
project. That is the reason we had CTO, the experts in this in 
the engineering of such a concept and the experience in this 
type of radio system, involved in helping us get to where we 
are.
    We also had a project manager, someone from Global Tech, 
who was able to keep us on track with a large project and 
initiative like this, someone who had experience in that and 
the various types of systems and projects that are out there 
that are offered.
    Mr. Capuano. Thanks, Chief.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Chief, you have your experience in the area of law 
enforcement. You are not a technical expert in the area of 
communications, radios, et cetera.
    Who did you use as your expert?
    Chief Morse. We have, what we use as our experts are two 
people. One is CTO and how they reached out to partner and also 
to experts in the field, and they are certainly engineering, 
senior engineering experts themselves. In addition to that, the 
hiring of the project manager from Global Tech, he is an expert 
in this field with a vast amount of experience as well. So we 
had really two paths of expertise taking us through this 
process.
    Mr. Lungren. Who is NavAir?
    Chief Morse. NavAir is a government entity.
    Mr. Lungren. Right. But I mean, what are they?
    Officer Nichols. NavAir works under DOD obviously. They do 
a lot of engineering for communications for other agencies. 
They are a pay-for-fee, or a pay-for-service type organization. 
But they do bring a lot of technical expertise to bear on 
telecommunications issues.
    Mr. Lungren. Did you consult with other law enforcement 
agencies that have gone through this same issue?
    Chief Morse. Yes.
    Mr. Lungren. Who?
    Chief Morse. Specifically, I would have to turn to our CTO 
folks who are here with us.
    Mr. Lungren. Well, maybe they can tell us who.
    Chief Morse. But some of the partners or some of the 
systems that were looked at in the Metropolitan area, for 
instance, are Maryland authorities; Prince George's County the 
Metropolitan Police Department here in the District of 
Columbia.
    Mr. Lungren. Did you folks consult with the Secret Service?
    Chief Morse. I am--the answer is, yes we did.
    Mr. Lungren. Did any of these agencies talked about make 
recent purchases for the upgraded communication systems that 
they currently have?
    Chief Morse. Yes. The Prince George's County and 
Metropolitan Police Department would be the most recent.
    Mr. Lungren. But they would be one that generally spends 
its time in open areas as opposed to what you described as the 
unique characteristics of the police department right?
    Chief Morse. That is correct.
    Mr. Lungren. I mean, my question is Secret Service, and I 
am not trying to say they are the only one out there, but I 
have seen them operate with their communication systems. They 
go into just about any environment you can possibly have, 
closed environments, open environments, et cetera, have to 
bring their communication systems. It would seem that they 
might have some particular expertise. How much did you rely on 
their expertise?
    Chief Morse. Well, I can say that our representative from 
Global Tech is very familiar with how their systems function 
and have worked on many projects in that respect with those 
systems.
    Mr. Lungren. You said in your testimony that a current 
level of radio security does not meet appropriate Federal 
standards, and then there are some other issues that we cannot 
discuss publicly. I assume that means you could discuss 
publicly the failure to meet appropriate Federal standards. 
What do you mean by that?
    Chief Morse. Specifically to encryption capability.
    Mr. Lungren. Are you currently in a situation where the 
performance of the Department is less than what you would hope 
it to be because of failures in communication?
    Chief Morse. Whenever you operate, knowing that your system 
could fail at any time because it has in the past as a whole 
and on certain occasions from a hardware or software 
standpoint, it does not give you a confident feeling that you 
can carry out operations on a daily basis or in an emergency 
situation if in fact your system is unreliable.
    Mr. Lungren. In the review of what happened on 9/11, there 
was the pinpointing of the lack of interoperability and the 
lack of officers unable to talk to one another, the fire 
department being able to talk to the police department. Do we 
have a situation here at the Capitol that there are episodes or 
times where officers cannot talk with one another?
    Chief Morse. That is correct, nor could we talk to them.
    Mr. Lungren. How long have we had that?
    Chief Morse. Well, at various levels. Obviously, as I said 
in my testimony, our staff has worked very hard to eliminate as 
much as those gaps as we possibly could. This particular system 
takes it even further than that and helps us fill those gaps to 
ensure that communication with our officers--two-way 
communication with our officers is paramount--and that can 
occur throughout the complex.
    Mr. Lungren. See, here is the concern that I have. And that 
is not just with your department, but departments across the 
country. We have gotten a warning which was in the form of a 
terrible attack on our land, on our own soil. And that has been 
a number of years ago. And one of the things everybody agreed 
on was the failure of our communication systems on the ground, 
within departments, within the sub-set of departments, 
interoperability. And yet we still are asking some of the same 
questions we asked then.
    And that is why I am somewhat confused that, if this is 
such a priority, the 2009 budget request from your shop doesn't 
request money for this radio system replacement. And if it is 
of that urgency, as I believe it is, why didn't we ask for 
that, or why didn't we receive a request from you asking for 
that?
    Chief Morse. Primarily because we wouldn't be able to ask 
for the amount of money that is required to do an initiative 
like this until we were able to complete the design and concept 
of the operation and have a cost analysis associated with that. 
And that is where we were as discussions began on this, and 
that is where we are today.
    We now know the conceptual design of this. There is a cost 
analysis associated with that, as well as facilities costs. And 
we are prepared to make that request in whatever fashion that 
the Congress would support us.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Capuano. Mr. Brady.
    The Chairman. First of all, Chief, thank you for being here 
today and thank you for the job you do protecting us and all 
the citizens. I know it is pretty tough that job in itself, but 
it is also tough to have to report to so many bosses that have 
so many different ideas.
    But in a perfect world or even just in reality, how long 
would it take, if everything moved in the right proper 
direction, would it take for you to have a proper system that 
you would like and would be the proper system that we would be 
able to rely on, God forbid, any other emergency or be able to 
talk to all the entities that we need to talk to? How long 
would it take for you to get that up and running?
    Chief Morse. Two years. And we have the--as I said, as I 
stated in my testimony, this is designed in phases, and with 
those phases come timelines, and we are in the acquisition 
phase now. And that would require an RFP for bidding for the 
scope of work that needs to be done. And from that point to 
completion would be 2 years.
    There is a testing phase that goes with that, but that is 
not an operational issue. So we would expect to go operational 
with this in 2 years.
    The Chairman. I am sure that this is a system that could be 
upgraded; as times allow or need be, they can upgrade them as 
you have to?
    Chief Morse. Yes, this system provides us not only state-
of-the-art technology that is current with this type of radio 
system, but it also sets us up for the future and expansion.
    The Chairman. Then you will need one budget request, or 
will you need a phased 2-year budget request?
    Chief Morse. The preference of the people who are advising 
me is that this be a one-time request, which----
    The Chairman. I am not holding you to that. You need to be 
safe. I understand that.
    Chief Morse. Right.
    The Chairman. For the most part, to the best of your 
knowledge, it will be a one-time budget request, and you will 
have what you need to get it done, phases that will be up and 
running within 2 years but completed within 2 years?
    Chief Morse. Right.
    Ms. Jarmon is going to answer the question here regarding--
--
    Ms. Jarmon. I just wanted to add that, while the option of 
receiving the money up front is probably the better option 
because we wouldn't have as many of the possible cost increases 
that could occur if we receive the money over several years, 
but since, like the Chief mentioned, that this would be 2 years 
from the time that the contract is awarded based on our 
estimate, our preference would be that there be no-year money 
because it will be spent over a couple of years.
    The Chairman. Okay. Thank you.
    Mr. Capuano. I would like to note that we have been joined 
by Ms. Lofgren, and without objection, if she would like to ask 
any questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I am sorry to be late. I am very interested in this 
subject. As Mr. Lungren knows from our other assignment on the 
Homeland Security Committee, there is a lot of work that has 
been going on on interoperability. And we are fortunate that 
the District of Columbia metropolitan region is in the lead 
along with Silicon Valley on how you do interoperability in the 
smartest way. And so I am looking forward to making sure that 
we get the upgrades that we need but that we do it in a way 
that is going to last and not have to be replaced, because 
there are software solutions to a lot of what we think are 
hardware questions.
    And I thank the chairman for allowing me to participate and 
look forward to being a productive partner with the 
subcommittee on this.
    I yield back.
    Mr. Capuano. Thank you.
    Chief, I want to talk, because there have been several 
publicized reports about the potential cost of this system that 
have ranged all over the ballpark, anywhere from $10 million to 
$70 million and above. And I know that you haven't put the RFP 
out there. I know that, and I respect that.
    At the same time, you know, every vendor in the world 
already is thinking about this. You are already thinking about 
it. You have some ballpark ideas of what you think it might 
cost and a range. Could you give us an estimate of a range? And 
I am particularly interested in, if that is the case, as I 
understand it, some of those estimates have changed depending 
on who has looked at the issue, and I am just wondering why 
they would have changed.
    Chief Morse. Well, I would like to address the issue of 
what has changed and why that has changed. With respect to 
NavAir, which is where the original costing quotes were placed, 
with respect to NavAir and replacing a new system, what they 
did versus replacing a new system are really two different 
things. What NavAir did for our organization was take a look at 
the existing radio system and recommend to us a manner in which 
we could enhance that system to its highest capability. Even 
with that being said, that would be with the existing 25-year-
old hardware and software and infrastructure. So we would be 
enhancing a system that eventually would be obsolete. But that 
was an option, and certainly remains an option, that you could 
enhance to the highest capability possible the current radio 
system, which is an analog system. And you would try to do that 
in coverage areas, as well as a secure and interoperability. 
But we would be doing that with a system that is obsolete.
    What changed is the fact that, at the conclusion of that 
report, it notes that the long-term resolution is for state-of-
the-art technology, a P25 digital trunk system, which requires 
a whole different level of engineering expertise infrastructure 
along with the mission sets that are required to accomplish our 
mission as the United States Capitol Police in safeguarding the 
campus. That is the big difference. It is really an existing 
system versus making a new system what it needs to be to 
support us. And that is really the difference in cost.
    So had the NavAir report been the CTO report of a new 
system, we would be at the same place today. But they were 
really two different reports.
    Mr. Capuano. Thank you Chief.
    And the reason I ask is, obviously, I mean, we all want the 
best system we can get that works and meets the security 
requirements and all the other requirements that you already 
know about. At the same time I hope that you are sensitive, and 
I am actually more--I am less talking to you than I am to what 
I presume to be vendors in the audience. I hope that they are 
very sensitive to the fact that what we went through with the 
CVC, we will not go through with the radio system. When we get 
a number, it is the number. And it won't be doubled. It won't 
be tripled. It won't be quadrupled. That will be the number. 
Whatever the number is, and as long as it is fair and 
reasonable, that is going to be the number. And that is--I 
think a lot of concern around this place lately is the fact 
that we are not sure we are being led down a rosy path with 
numbers that double and triple as soon as we say yes. That is 
number one.
    Number two is--my hope is that, as you go out to bid, that 
there is some sort of performance bond, particularly if you are 
going to pay the money up front or chunks of money up front, 
which I understand. I have no problem with that concept. But I 
will tell you that representing Boston I have an unfortunate 
fair amount of experience in people that didn't get sufficient 
performance bonds for large capital projects. And that was 
significantly a seriously bad judgment. And as a former mayor, 
I have bought radio systems. I have bought fire trucks. I have 
bought police equipment. We always had performance bonds and, 
again, not because we don't trust the vendors, but because we 
had to give up a lot of money up front. They were expensive 
systems, because you don't want to get into the thing and, all 
of a sudden, you get halfway down the road and somebody says, 
well, by the way, you didn't ask for this third tower over 
here, and now that you need it, it is another $5 million. 
Performance bonds prevent that. So my hope and expectation is 
that whatever the number is that it is the number; it gets you 
exactly what you ask for and, especially if we are going to be 
having upfront payments, that we have some sort of a 
performance bond or its equivalent.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The thought strikes me that someone who succeeded in 
getting this bid and did a good job, it might be a pretty good 
selling point for other business around the country that you 
provided the best radio system for our Nation's Capitol. Maybe 
people ought to think about that when they are bidding.
    You know, we passed a billion dollar grant program for 
interoperability for all the agencies around the United States 
except the U.S. Capitol, $1 billion. And it was supposed to be 
on a risk-based assessment. And what is risk? One of the ways 
you analyze risk, one of the elements of risk is threat.
    Is there any belief on your part, Chief Morse or Assistant 
Chief Nichols, that the U.S. Capitol is no longer a potential 
target among terrorists?
    Chief Morse. There is no belief of that at all.
    Mr. Lungren. Well, here is my point. We spent $1 billion. 
We are going spread out all around the country. We are going to 
send to every other jurisdiction for their communications, and 
part of it is, we are going to try and figure out which may be 
targets as part of our assessment as to who ought to get the 
grants, but we make sure the only person who doesn't get it, 
the only group that doesn't get it is the U.S. Capitol Police. 
I don't know, that strikes me as somewhat odd.
    Let me ask you this, Chief, who is the chief contracting 
officer in your operation for this?
    Chief Morse. It would be a procurement officer within the 
Office of Financial Management which falls under the Chief 
Administrative Officer.
    Mr. Lungren. Who is?
    Chief Morse. Gloria Jarmon.
    Mr. Lungren. All right.
    What role if any is played by the police board and the 
oversight committees.
    Chief Morse. With respect to the Capitol Police Board, we 
briefed out and kept apprised the Capitol Police Board of every 
step along the way of this project. And they were inclusive in 
the decision-making of its concept and endorsed that.
    Mr. Lungren. If there is a protest involved in the bid 
process, how is that adjudicated?
    Chief Morse. That is not a question I can answer.
    Maybe Gloria could do that for us.
    Ms. Jarmon. I think the protest would still go through the 
GAO bid protest process.
    Mr. Lungren. Is there any--Chief, you mentioned that, if 
everything goes along as it should, you would have this system 
up in 2 years. If you have a protest in the midst of that, do 
you know how that would interfere with, if it would interfere 
with, the project if you have already started the process of 
building this out?
    Chief Morse. Well, I think if there was a protest, it would 
probably come before the start of the process, so it would 
depend on how long it took to adjudicate that before we 
started. So the way we look at this is, every day or every week 
or every month that you wait is that much further out for the 
completion of the system. But when you start to finish it is 2 
years.
    Mr. Lungren. Now, Chief, I mean, when you make this 
decision, we are talking about you and your men and women in 
uniform as well as the people you serve relying on a system 
that you made a decision upon. We know from 9/11, that can mean 
the difference between life and death; success or failure; a 
disaster becoming worse or a disaster being prevented. How 
confident are you in the process that you have begun that you 
are going to get to the right decision here, and how confident 
are you that, in any request for proposal that is put out 
there, that you believe you have covered all the bases so that 
the responders will not only respond within what we consider to 
be appropriate parameters financially but performance-wise?
    Chief Morse. I am 100 percent confident that we are doing 
this the right way. We have the right methodology to do this. 
We have contracted the right expertise to take us through this 
process. We are going to continue to have peer review of this 
process and due diligence to ensure that it is the best system 
that we can possibly offer to this community. And I pledge that 
due diligence will be done in this case.
    Mr. Lungren. Let me ask one last question here. I have been 
trying to figure out how you would find departments that are 
similar to your department. And maybe this might sound a little 
offbeat, but I am trying to think of places that have large 
numbers of people that are funneled through small spaces, 
oftentimes broken up, a landscape that changes; you have got 
some open spaces, but you have a lot of buildings of different 
sizes; you are worried about, you are concerned about the 
convenience of the individuals as well as your ability to 
perform. And in some ways, and I don't mean to make this 
facetious or anything, but we are more like a major amusement 
park than we are like other things; like a Disneyland or an 
Epcot or something like that that has to force people through. 
What I am trying to think of is how imaginative were you in 
reaching out to other organizations that may be similar to you 
in terms of their performance and in terms of the challenge 
that they have in terms of what kind of communication systems 
they might have when you have told us that people like the 
Metropolitan Police or others in this area are dissimilar very 
much in terms of the mission and the communication needs they 
have?
    Chief Morse. It is very difficult to find other agencies 
who are as unique as us. And that is why I am so proud of the 
hard work of our civilians and sworn personnel each day.
    With respect to reaching out with a radio system and 
finding similar situations, for instance, the Metro Transit 
system, Metro Transit Police and the subterrainean underground 
work that they do and the challenges that they face. So it may 
not be one agency with respect to a challenge that they face, 
but we sort of have all the different challenges of all the 
different agencies. So Metro Transit would be an example of an 
agency that has subterrainean, below-ground work in areas that 
typical police departments don't work.
    We also obviously worked--we kept in mind that a lot of, 20 
percent of our work is outdoors, so we obviously looked at 
agencies who have outdoor coverage, protective responsibilities 
like we do, building security like we do, street patrol like we 
do, and sort of tried to find a mix of agencies that captured 
all the different challenges that we face here on the Hill.
    Mr. Lungren. I thank you very much.
    Thank you, Mr. Chair.
    Mr. Capuano. Mr. Brady.
    The Chairman. Chief, you said you are 2 years out once we 
get the bid process and the bid awarded. How many years are we 
until we get to that 2 years? And maybe you shouldn't answer 
that because you might be getting us more scared. I mean, are 
we getting close? And I want to say, for the record, that you 
do have a system that is in place that does work, so we are not 
trying to send anybody any messages out there, but we just want 
to make this work better and more efficient. But are we like 
getting close to that signature?
    Chief Morse. Yes, we are.
    As you recall in testimony, we have seven phases of this 
project. We are currently in phase four, which is the 
acquisition phase of the project. Three to six months after the 
RFP is issued for design and construction, we would move into 
the implementation stage, which is phase five, which is 15 to 
18 months. So we are in the acquisition phase. What needs to be 
done now is to write and complete the RFP to put out for 
bidding. And once that is accomplished, then we can move into 
the implementation phase.
    The Chairman. And whoever gets that award will have a 
timeframe when they have got to do their due diligence to get 
moving too quickly?
    Chief Morse. That is correct. And like I said, this is all 
based on engineers and subject matter experts in this, so it 
shouldn't deviate in timeframe.
    Then you move into phase six, which is the test and 
acceptance phase, which is 2 to 3 months and then, finally, the 
operation and maintenance and lifecycle of the system.
    The Chairman. Because I find it astounding that we are 
moving faster than they are. ``We'' meaning us in Congress are 
pushing to move it quicker than they are, so let us try to get 
this done.
    Chief Morse. We agree, and we always appreciate all your 
support in helping us accomplish these tasks to safeguard the 
campus.
    The Chairman. Thank you.
    Mr. Capuano. Chief, one last question. When this is all 
built out, how many people will be using this system, about?
    Chief Morse. Well, within our agency, we have about 2,000 
employees plus and, from a sworn standpoint, around 1,700 that 
would be using this. But this also has the capability of adding 
additional users, which is why it is such a great system. You 
know, the interoperability part where we can bring in other law 
enforcement agencies; other entities within the congressional 
community who use radio systems, can use this system. So one of 
the reasons that we use the leg branch radio system with this 
is that its capability is to bring on as many users as you 
want.
    Specifically with us, they have given me a number of 2,400 
units/subscribers, and could go up to 5,000 users/subscribers.
    Mr. Capuano. So, at the moment, the estimation is to begin 
with, give or take, 2,000 members of the Capitol Police and 
immediately allow the use, give or take, of 400 non-Capitol 
Police but yet employees of the Capitol.
    Chief Morse. That is correct. And it also allows other leg 
branch entities to use the system as well.
    Mr. Capuano. Thanks.
    I think we are all set, Chief, now. Thank you very much. I 
appreciate it.
    If I could ask the second panel to take positions. 
    Thank you.
    The second panel, we were going to have Chief Cathy Lanier 
of the Metropolitan Police Department, but my understanding is 
she has more pressing demands for her immediate attention at 
the moment. And we are honored to have Commander James Crane 
join us, and I believe Mr. Travis Hudnall is with you as well.
    We also have Mr. David Boyd from the Department of Homeland 
Security and Mr. Steve Souder, who is the director of Public 
Safety For Communications for Fairfax County and a 
representative of the Association of Public Safety 
Communications Officials.

   STATEMENTS OF JAMES CRANE, COMMANDER, SPECIAL OPERATIONS 
DIVISION, METROPOLITAN POLICE DEPARTMENT, ACCOMPANIED BY TRAVIS 
   HUDNALL, CHIEF INFORMATION OFFICER; DAVID G. BOYD, Ph.D., 
  DIRECTOR, COMMAND, CONTROL AND INTEROPERABILITY SCIENCE AND 
TECHNOLOGY, UNITED STATES DEPARTMENT OF HOMELAND SECURITY; AND 
      STEVE SOUDER, DIRECTOR, DEPARTMENT OF PUBLIC SAFETY 
     COMMUNICATIONS, FAIRFAX COUNTY, VIRGINIA, AND MEMBER, 
     ASSOCIATION OF PUBLIC SAFETY COMMUNICATIONS OFFICIALS 
                         INTERNATIONAL

    Mr. Capuano. And with that, I believe we will start with 
you, Commander Crane.

                    STATEMENT OF JAMES CRANE

    Mr. Crane. Mr. Chairman, members of the committee, staff 
and guests, on behalf of Chief Cathy L. Lanier, thank you for 
the opportunity to present the statement on the need for 
upgrades to radios used by the United States Capitol Police.
    My name is James Crane. I am Commander of the Metropolitan 
Police Department, Special Operations Division. From 2002 to 
2007, I was director of D.C. Police Communications. To my right 
is Mr. Travis Hudnall, our Chief Information Officer.
    The Metropolitan Police Department believes this upgrade is 
vital to the safety of those who work in and visit the U.S. 
Capitol and therefore is of interest to both the District of 
Columbia and the entire Nation. The specific operational 
relationship between the Metropolitan Police Department and the 
U.S. Capitol Police regarding voice communication has a long 
history of partnership.
    In 1992, our Department and the U.S. Capitol Police entered 
into a memorandum of understanding allowing for reciprocity in 
radio programming. At the time, both agencies used an analog-
based system. Selected units with adjacent patrol areas were 
cross-programmed, allowing members to monitor and communicate 
on each agency's channels. However, the system shared a common 
trait of analog systems with poor signal strength, especially 
in many large buildings, inherent noise and heavy static and 
the inability to communicate in the subway system.
    In 2003, the District of Columbia built a digital trunk 
radio network for all city agencies. This replaced MPD's analog 
system and now provides redundant service within a 35-mile 
radius. Interoperability is one of the most important joint 
issues between local and Federal partners.
    In September of 2006, a mandatory Federal interoperability 
exercise was conducted by the Department of Homeland Security 
with National Capital Region agencies. The NCR partners, 
including MPD and U.S. Capitol Police, received one of the 
highest marks in the Nation. Our city system can also be viewed 
as a regional system.
    Because of the digital platform, there is the ability to 
program access with additional users from partner agencies, 
both local and Federal. However, agencies using an analog 
platform are at a disadvantage. They cannot be programmed to 
have direct connections to a digital system.
    Any upgrade to the U.S. Capitol Police radio system will 
have a direct positive impact on MPD operation and city events. 
Our agencies are daily partners and maintain a security event 
such as protest and large scale events such as national special 
security events. With the Presidential inauguration several 
months away to be followed by the State of the Union Address, 
the need for improvement is paramount. It is also very common 
for events to involve not only our two agencies but many other 
partners, such as the U.S. Park Police or the United States 
Secret Service.
    Both of our agencies are parties to the National Capitol 
Region's Police Mutual Aid Operational Plan. An integral part 
of this agreement involves response and unified command when 
faced with multi-jurisdictional responsibility, a common factor 
for law enforcement in the District. Voice interoperability is 
a key to achieving efficient operations in the spirit of this 
agreement.
    As we move toward a unified force in crime prevention and 
law enforcement within the National Capital Region, it has 
become more prudent now than ever before to effectively 
communicate with our law enforcement partners.
    There is hardware that exists, and we do use it to create 
temporary patches, that can communicate with the U.S. Capitol 
Police. However, this involves notification to the respective 
communication centers, and it is best served for planned or 
prolonged events.
    Taken into account the need to continue rapid voice 
communications for unfolding situations and direct 
notifications, MPD did allow a select number of radios that 
were purchased by the U.S. Capitol Police to be programmed with 
MPD channels that allowed two-way communication with MPD's 
patrol districts and city-wide units.
    However, an upgrade by U.S. Capitol Police would allow for 
our agencies to implement direct channel integration. MPD has 
similar connections with D.C. Fire and emergency medical 
services and the Metro Transit Police. It would also allow for 
selected U.S. Capitol Police users to have MPD channels 
programmed into their radios without having to purchase 
additional radios. And depending on the type of system, U.S. 
Capitol Police may be able to facilitate voice communication in 
Metro subways when needed.
    All of our efforts are for one common goal, which is to 
protect the citizens, residents and visitors to the National 
Capital Region. Voice interoperability is an integral part of 
reaching these goals. And the Metropolitan Police Department 
supports any efforts to improve the communication systems for 
the United States Capitol Police.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions that you have.
    [The statement of Chief Cathy L. Lanier follows:]

    [GRAPHIC] [TIFF OMITTED] T4909A.007
    
    [GRAPHIC] [TIFF OMITTED] T4909A.008
    
    [GRAPHIC] [TIFF OMITTED] T4909A.009
    
    [GRAPHIC] [TIFF OMITTED] T4909A.010
    
    Mr. Capuano. Thank you,Commander.
    And we will have Dr. Boyd from the Department of Homeland 
Security.

                    STATEMENT OF DAVID BOYD

    Dr. Boyd. Thank you, Mr. Chairman, and members of the 
committee.
    As the members of this subcommittee are well aware, the 
ability to communicate is essential to the success of any 
emergency response operation. For that reason, a key mission of 
the Department of Homeland Security is to strengthen 
interoperability by developing tools such as technologies, 
reports and guidelines, best practices, methodologies, and 
voice and data messaging standards, and by testing 
communications equipment to those standards.
    But any successful interoperable communication solution 
requires a focus on user needs and requirements, so we rely on 
both practitioners and policymakers across disciplines, 
jurisdictions and levels of government to ensure that our work 
is aligned with actual responder needs. We believe this focus 
on the practitioner level has done much to improve 
interoperability since the attacks of 2001, but more remains to 
be done.
    We developed the Interoperability Continuum to outline what 
it takes to achieve interoperability, which the House Homeland 
Security Committee tells us they have seen in virtually every 
communication center in the country and which has also been 
adopted by Canadian public safety.
    We completed a National Interoperability Baseline Survey 
and published the first national Statement of Requirements for 
Public Safety Wireless Communications and Interoperability to 
serve as a guide for agencies developing their own 
requirements. Each major urban Metropolitan area now has a 
Tactical Interoperable Communications Plan scored by DHS, and 
all 56 States and territories have Statewide Communications 
Interoperability Plans.
    The DHS Office of Emergency Communications will shortly 
release the first National Emergency Communications Plan which 
is informed by national principles developed by practitioners 
at every level of government, and we are initiating pilot 
evaluations of a multi-band radio capable of bridging all the 
public safety spectrum and modes.
    Our core strategy aims at building a system of systems so 
that separate agencies can join together using interface 
standards and compatible procedures and training without having 
to discard huge investments in existing infrastructure.
    Our experience working with practitioners has led us to 
believe there are a number of issues agencies must understand 
in building any communication systems, among which are these:
    Agencies must be able to articulate exactly what they need 
in requests for proposals and contracts. This will be 
especially important for any new system in the Capitol, because 
the nature of the Capitol campus and its construction makes 
communications within and between buildings and in tunnels and 
subways particularly challenging and because the National 
Capital Region has one of the most difficult radio frequency 
interference environments in the world.
    Agencies must not assume digital systems are always 
superior to analog systems, that digital systems are somehow 
immune to interference, or that systems must necessarily be all 
digital or all analog. In some situations, digital systems can 
be more susceptible to interference than analog systems, and 
interference can often have more severe consequences for 
digital signals. And sometimes hybrid systems may offer more 
reliable capabilities. Digital systems are the future of 
communications, but they are not a panacea. Effective 
requirements gathering and sound systems engineering principles 
remain the most fundamental elements of any successful system 
development.
    A thorough testing, evaluation, and acceptance process 
should be carefully spelled out in both RFPs and contracts, and 
demanding testing must be conducted before acceptance, not in a 
laboratory or factory but in actual operational use. When new 
systems fail in the field, it is generally because they were 
accepted from the vendor without adequate testing.
    Whenever possible, agencies should purchase proven 
technologies that have been fully tested and piloted by the 
vendor in environments that are as much as possible like that 
of the purchasing agency, and that are early enough in the 
technology lifecycle to both meet current interoperable 
communications standards and to continue to be supported for at 
least 10 to 15 years after acceptance.
    Agencies should consider broader requirements, and design 
the system so it can support other critical functions such as 
encryption and the transmission of critical text imagery and 
other information.
    Agencies should develop a lifecycle strategy that allows 
for graceful updates as enhanced technologies and capabilities 
become available. Such a strategy will allow the agency to 
extend the life of the system by making more gradual 
infrastructure investments over time instead of being forced to 
make a wholesale replacement once the system is so old it 
verges on collapse.
    Finally, all of the critical factors for a successful 
interoperability solution identified in the continuum--
governance, standard operating procedures, training and 
exercises, and integration of the system into daily 
operations--as well as technology--must be addressed in agency 
planning.
    I would be happy to answer any questions you may have.
    [The statement of Dr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T4909A.011
    
    [GRAPHIC] [TIFF OMITTED] T4909A.012
    
    [GRAPHIC] [TIFF OMITTED] T4909A.013
    
    [GRAPHIC] [TIFF OMITTED] T4909A.014
    
    [GRAPHIC] [TIFF OMITTED] T4909A.015
    
    Mr. Capuano. Thank you, Mr. Boyd.
    Mr. Souder, the Director of Public Safety and 
Communications for Fairfax County.

   STATEMENT OF STEVE SOUDER, DIRECTOR, DEPARTMENT OF PUBLIC 
   SAFETY COMMUNICATIONS, FAIRFAX COUNTY, VIRGINIA, MEMBER, 
     ASSOCIATION OF PUBLIC SAFETY COMMUNICATIONS OFFICIALS 
                         INTERNATIONAL

    Mr. Souder. Good afternoon and thank you, Mr. Chairman and 
distinguished members of the Subcommittee on Capitol Security, 
for the opportunity this afternoon to speak with you about my 
knowledge regarding the efforts of the United States Capitol 
Police to upgrade their current and legacy radio system.
    On June 10th of this year, I had the opportunity to meet 
with several representatives of the United States Capitol 
Police. At that time, based on the detailed information they 
provided me to upgrade their current radio communications 
system, I am prepared today to testify before the subcommittee 
in the following seven areas:
    One, the need for adequate and reliable and secure command 
and control radio communications for law enforcement and 
security applications presently and in the future for what is 
by anyone's standard one of the most important and most unique 
law enforcement agencies in the United States of America, the 
other one being 16 blocks away.
    Number two, current and rapidly expanding data 
communications applications in fixed, mobile, and portable 
devices.
    Third, interior and exterior radio signal propagation 
coverage and quality within the Capitol building, the 
associated buildings on this Hill, including below ground 
areas, garages and tunnels, and an acceptable above ground 
wider area coverage within the National Capital Region.
    Interagency radio communications, interoperability, 
including local and Federal partner public safety, law 
enforcement, fire-rescue, emergency management, and emergency 
medical service agencies. Compliant with the standards and the 
recommendations contained in APCO Project 25 relating to 
interoperability and disparate radio systems and technologies.
    Six, scalable and expandable radio system design, 
equipment, and capability.
    And lastly, to address the chairman's comments earlier, 
incorporate proven and effective project management, contract 
compliance, vendor performance expectations, and change order 
and cost containment safeguards.
    I hope that the information that I can provide today will 
be helpful both to the subcommittee and the United States 
Capitol Police in our collective effort to secure the best 
possible radio communications system in furtherance of 
protecting the public and legislative branch of our great 
country, the United States.
    [The statement of Mr. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4909A.016
    
    [GRAPHIC] [TIFF OMITTED] T4909A.017
    
    Mr. Capuano. Thank you, Mr. Souder. I just have what I 
consider to be basic questions. And I guess the first question 
I am going to ask of each of you, first of all, whether you 
know enough about the specific proposal the Capitol Police are 
discussing or considering to comment? And if you don't, you 
don't. That is fine. But if you do, I would like to know what 
you think of the system. And if you were to become the Chief of 
the Capitol Police tomorrow would you pursue a similar or 
comparable effort to purchase the system that is under 
consideration?
    And we will start with you, Commander Crane.
    Mr. Crane. No, I have not seen the specs or proposal for 
the current system, but if I was in a leadership position here 
I would try and look and see if anything could be reviewed.
    Mr. Capuano. Mr. Boyd.
    Dr. Boyd. I also don't have all of the detailed specs, 
although we have been briefed by the Capitol Police. I can tell 
you two things. One is that it looks to me like the methodology 
and the process they are following is exactly the sort of thing 
that I taught in those days when I taught at the university 
about how to go about building a system. So I think they are 
going through the right steps, and I think they are doing the 
right thing.
    As for cost, without looking at and doing a detailed survey 
that is hard to do. But what I did ask my staff to do was to 
not look just at the places the Capitol Police have gone to, 
but to look at a couple of other places that I thought might 
give you some notion of what reasonable cost ranges are. One, I 
can give you is an example of a traditional, typical department 
that is not going to be analogous to the Capitol because it 
doesn't have a number of the problems the Capitol does. The 
Portland, Oregon area, where one subset of that system, the 
Clark Regional Emergency Services Agency, which they are in the 
process of moving to an 800 megahertz system with about the 
same number of subscribers is an example. But it is a 
terrestrial system, it is not in tunnels, and it doesn't have 
the building campus kinds of issues. Their estimate is that 
they will need about $36 million.
    One that is probably a little closer but still doesn't have 
all the same issues that the Capitol Police have, is WMATA, the 
Metro system here in D.C. If you think of that one with its 
tunnel systems and the parking garages that it has to worry 
about, their estimate right now is about $86 million. And I 
would suggest that they do not have some of the cost issues 
there that you will have here. Nobody cares a whole lot whether 
you drive a nail in the wall in the subway or in a parking 
garage and hang a cable on it. But you are not going to do that 
in these buildings. So when you think about what it is going to 
take in historic buildings like this to install a system and 
its infrastructure, and when you consider that fiber links 
between buildings require excavation in a notoriously 
complicated area, with traffic that can't be blocked very much 
and all of the other things that will go with that, I suspect 
there are some cost issues here that no matter how diligently 
they design the project may surprise you as you go forward.
    Mr. Capuano. Mr. Souder.
    Mr. Souder. And I also only know what I have been briefed 
on. But what I have been briefed on gives me a high level of 
comfort that the approach that has been taken to date, that of 
doing a strong analysis about what the current problems are and 
what the needs are in the future, combined with obtaining the 
outside expertise of the consulting firm that has a lot of 
experience in this field, as well as looking at some of the 
pitfalls that have befallen some systems that have been 
installed throughout the Nation where this same very deliberate 
approach was not taken, and the end result was not as expected, 
it would seem to me from what I have been briefed on and what I 
have read that those lessons have been well learned by this 
group both within the Capitol as well as within the consultant 
they have acquired the services of, and that the plan that has 
been put forward as a solution to these legacy problems that 
the Capitol Police are dealing with is a strong plan. But I 
think it is only as strong as the vendor's ability to meet that 
expectation and to ensure that what the consulting vendor has 
recommended the installation vendor, whatever company that may 
be that is actually put under contract to install this system, 
can fulfill that expectation so that there aren't the surprises 
that unfortunately have occurred elsewhere in the country when 
it comes to did the system really provide what the end user 
needed and did it provide what the RFP, if you will, said it 
should provide.
    Mr. Capuano. Thank you very much. Mr. Lungren.
    Mr. Lungren. Thank you. I would ask all three of you this 
question. And that is, is there any dispute that they ought to 
be moving from analog to digital?
    Dr. Boyd. No. I personally think you have to go to a 
digital environment. That is the future. It provides features 
you can't get in an analog world. The only comment I make about 
the analog piece is that there are sometimes issues where you 
may want to think about a hybrid linkup. For example, fire 
services are discovering some real difficulties with the 
existing line of vocoders. I think we will be able to fix that. 
We are working with the community now to try to come up with 
better standards, but current vocoder distortion makes 
communications very, very difficult for fire personnel. What I 
am suggesting is that as you go through the engineering and the 
requirements design, it is imperative you do testing and 
surveys to make sure you have the right solution. Ultimately, 
it must be a digital system.
    Mr. Lungren. Any disagreement with that, Mr. Souder?
    Mr. Souder. Not at all. In fact, everybody in the 
metropolitan area that is either at an interoperable radio 
system, usually in the 800 megahertz frequency, and they may 
have done that early on before digital became a solid option, 
or making a conversion from their analog to digital, and those 
newer sometimes that are being installed; namely, in Prince 
Georges County and elsewhere, including Arlington, are going 
digital.
    So clearly, as the doctor said, it is the wave of the 
future, no pun intended. And clearly, to invest in any system 
other than a digital system would not be a step forward.
    Mr. Lungren. You concur, Commander?
    Mr. Crane. Yeah, I concur with the approach that Dr. Boyd 
mentioned about a hybrid. When we converted to digital we had 
many partners, Federal and local, on analog systems. We had to 
keep an analog transmitter up for several years so that we 
could patch them back into our digital system. So I agree that 
moving forward with digital and other methods is the best, but 
you have to always remember that some of your partners might 
not be able to come up to speed yet.
    Mr. Lungren. If you have a situation in which, as I 
understand what the Chief said, that some costs were estimated 
out of there by NavAir that was sort of, as I understand it, 
upgrading the current system as opposed to bringing a new 
system in, is there any argument that could be made that we 
ought to upgrade the current system as opposed to moving into a 
newer system because upgrading the current system will get you 
at least incrementally--make some incremental progress in a 
shorter time span than putting in an entirely new digital-based 
system?
    Mr. Crane. I don't think upgrading an analog system, which 
you said was 25 years old, would show much improvement because 
of the age of the system. I am thinking of the transmitters 
involved.
    Dr. Boyd. I think you would be throwing largely good money 
after bad. I would limit the Band-Aids to what you absolutely 
must do to cover what you need for that transition period, 
because you are not going to turn the existing system off until 
you are absolutely certain the new system can meet those 
requirements. But I would try to limit the investments in those 
Band-Aids only to what I absolutely had to have.
    Mr. Souder. And I would concur with that also. There was an 
analogy made earlier in this testimony relative to buying a 
car. Clearly, we would not go to a dealership and expect to buy 
a 1985 model of car with a new digital dashboard. We would look 
to upgrade the entire vehicle. And that is exactly I think the 
approach that should be taken here.
    Mr. Lungren. Dr. Boyd, I think you said something to the 
effect that you ought not to get unproven technology, you ought 
to get proven technology. Is there any lack of proven 
technology to put into a system such as would be required to 
meet the needs here of the Capitol?
    Dr. Boyd. No, I don't think so. I think there is more than 
enough sufficient proven technology out there. Back in my Army 
days, before I retired, we used to refer to different levels of 
technology. You don't want bleeding edge technology. That is 
the stuff that you are going to put in place then and figure 
out if it really works well. You want something that has 
already worked somewhere. But you also want to make sure that 
it is early enough in its lifecycle that it has been well 
established, and that you know for sure will really work in 
environments that are as similar to yours as possible.
    Mr. Lungren. Thank you very much, Mr. Capuano.
    Mr. Capuano. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I just appreciate 
that we are sitting in one of two places in the country that 
has had really a very effective intergovernmental effort to 
address interoperability. And the National Capital Region, I 
mean I have been very critical in some aspects of the 
Department of Homeland Security, as Mr. Lungren knows. But I 
think the National Capital Area's interoperability project 
deserves a lot of credit. I credit it. I mean it has really 
been very good. And the other project that has had similar 
success is the Silicon Valley Regional Interoperability Project 
that is identified as a pilot program by DHS.
    So here is the question. There are really two questions, I 
guess, for this upgrade. One, do we want to have a 
communications system for the Capitol Police that works for 
them communicating with each other, that can be heard in the 
tunnels, that works? And I think the answer has to be yes. And 
that has to be a modern digital system. And the testimony we 
had both from you and the chief himself, you know, gives us the 
answer. But then there is a second question, which is the 
interoperability with other types of emergency personnel, other 
police agencies. We don't have a U.S. Capitol fire department. 
We don't need to be interoperable with them. We don't have a 
U.S. Capitol hospital system. I mean we need to be 
interoperable, and that is the thing, Mr. Souder, that you have 
worked on and others. So here is the question. I don't know 
that we have had the same working relationship with the Capitol 
Police that we have had with other police entities in the 
region. Would you envision a closer cooperation and support for 
the Capitol Police in the future on the interoperability 
issues? Could they become part of this regional team? Would 
that be a possible thing to do?
    Mr. Souder. During the briefing that I was provided a week 
and a half ago, the issue of interoperability was raised by me 
because of the very question that you posed. And I was informed 
that interoperability was given a lot of consideration by both 
the Capitol Police in its initial internal analysis as well as 
in conjunction with the consulting firm that they ultimately 
hired. And there is interoperability provided for within the 
proposed system with those key stakeholder and partner agencies 
that this unique police department operates with on a daily 
basis and would most often have to operate with in an 
exceptional basis. That does not include the entire 
metropolitan region, if you will. But it does include entities, 
as you suggest, the District of Columbia Fire and EMS 
Department, the U.S. Park Police, and those other key agencies 
that are so much a part of the Federal family and presence here 
on the Hill and immediately adjacent to that.
    Ms. Lofgren. I would suggest that you always when you have 
an emergency is not the time to say I wish that we had had this 
discussion before, because if there were a major disaster you 
might also have a need to communicate with Fairfax County and 
Arlington County, for example, depending upon what happened. I 
am not suggesting that there is anything deficient in what has 
happened to date, but moving forward I think that it would be a 
helpful thing to have ongoing support and communication on the 
interoperability issue, it seems to me.
    Dr. Boyd. I agree. And I think that needs to be designed in 
as they develop the system. What we tell agencies across the 
country, and all of our materials point at, is trying to work 
out how it is you are going to do this as you upgrade your 
systems. Probably the toughest nut to crack in this whole thing 
is governance. The Capital Region has done a pretty good job 
with this, and the Silicon Valley project, which runs out of my 
office, also has done a pretty good job in this arena. The 
hardest of all the pieces to crack has nothing to do with 
technology. It has everything to do with governance. It has to 
do with whether you really want to work together, and the 
degree to which you are willing to do so, so that you can build 
a viable system of systems.
    You are right that the Capital Region, just to give you an 
idea, has done a pretty good job with interoperability. I have 
been involved in it since about 1992. But I would suggest that 
if you think about when the initiative started, with the Air 
Florida crash in 1982, it has taken a longtime. When that crash 
happened they couldn't communicate because they didn't even 
share the same language, much less the same radios. They 
couldn't, for example, call for a HAZMAT unit and be certain 
they weren't going to get a pickup truck with two guys with 
push brooms and kitty litter. So they had to come up with a 
common language, as well as all of the technical solutions that 
go together. That means they have had 24 years to make all of 
this work. We don't want the rest of it to take that long, but 
it is important to understand that it is pretty complicated 
bringing so many different players together, as nobody knows as 
well as you do when you try to work on legislation. That human 
piece is going to be the toughest piece. My impression in the 
briefings I got from the Capitol Police is that they understand 
that, and that they are intensely interested in making that 
work. I would suggest, just as an outside observer, that the 
hardest part of this piece may very well be developing your 
internal Capitol governance over the different players that 
need to make use of this system.
    Ms. Lofgren. My time has expired, Mr. Chairman. I would 
think that as we move forward on this, the communication not 
only between the local agencies, but also the other Federal 
agencies; for example, the Secret Service and some other key 
elements, could also be a subject of improvement as we proceed. 
And I thank you and I yield back.
    Mr. Capuano. Thank you, Ms. Lofgren. Gentlemen, I would 
like to ask a further question. And I am not sure, I don't know 
whether you are familiar with the letter that has been kind of 
making the rounds relative to the suggestion we should be 
saving a lot of money by piggybacking on the DOD system. And if 
you aren't familiar with it, if you are familiar with the 
concept. And I am particularly interested in your opinions, 
Commander. My understanding is the Metro just kind of upgraded 
a few years ago. And I am just curious, when that happened did 
you look at piggybacking on somebody else's system?
    Mr. Crane. No, Mr. Chairman. It is an entirely brand new 
system for the entire city agencies, not only the law 
enforcement agencies and fire department, but other agencies 
such as Emergency Management Department and Health, all the 
city agencies that use two-way communication. This is their 
radio system, and have all built new transmitters in the 
District of Columbia. So it was an entirely new system at a 
cost of $40 million. And about $28 million of that was through 
Homeland Security funds.
    In terms of the letter circulating, I haven't seen it. I 
would feel uncomfortable if someone approached me about 
piggybacking on someone else's system, because then I am 
dependent on their engineers, their technical abilities. I 
would have to really see what that system is and what it can 
do. I think it is better to have what we have, is a unified 
system for the city, where we have a separate agency, not the 
police department and not the fire department, but there is a 
separate city agency that was tasked with maintaining that 
system.
    Mr. Capuano. Mr. Boyd.
    Dr. Boyd. I am not familiar with the specific letter, but I 
am a retired soldier who served on the Joint Staff and spent a 
full career in the military, and I would discourage that. I 
would discourage it for many of the same reasons the Chief has 
just talked about. But another one is that both the defense 
approach and defense priorities are necessarily different. The 
system would fall under a command that may have a set of 
missions that may require it to redirect the system just where 
the Capitol Police need it. The Defense agencies do not operate 
in the same way that police do. In fact, Capitol Police 
operations and the way they will use their communications 
systems are much more like the way the D.C. Metropolitan Police 
or the Fairfax Police will use it than they are like any other 
Federal agency, including the Department of Defense. That means 
you really need to think about building a system that meets 
your specific requirements and that is tailored to your very 
specific situation. The military approach is ideally suited for 
military applications, and military units. It is rarely 
properly suited for the kind of things public safety does.
    Mr. Souder. And I would like to make the opinion of the 
panel unanimous. Thank you.
    Mr. Capuano. Thank you very much, gentlemen. I appreciate 
it. And I again thank everybody who came. And I appreciate all 
the candor and the insight, because though I wasn't a radio 
expert when I started, I am now. And again thank you very much.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4909A.018
    
    [GRAPHIC] [TIFF OMITTED] T4909A.019
    
    [GRAPHIC] [TIFF OMITTED] T4909A.020
    
    [GRAPHIC] [TIFF OMITTED] T4909A.021
    

</pre></body></html>
